March 4, 2021

By Electronic Filing and Overnight Delivery
Scott Harris, Clerk of the Court
Supreme Court of the United States
Office of the Clerk,
1 First Street, N.E.
Washington, D.C. 20543
Re:

Pete Russell v. Bobby Lumpkin, Director, Texas Department of Criminal
Justice, No. 20-7071

Dear Mr. Harris:
This letter is to request a 30-day extension of time, up to and including April 9,
2021, in which to file a brief in opposition in the above-styled cause. This request for
an extension of time is not intended to unnecessarily delay this proceeding. Rather,
due to previously existing deadlines in other cases and the recent extreme weather,
the undersigned requires additional time to sufficiently address the issues raised in
Russell’s petition.
The undersigned communicated with Winston Cochran, counsel for Russell, who
does not oppose this motion.
Thank you for your consideration of this matter.
Sincerely,
RACHEL L. PATTON
Assistant Attorney General
(512) 936-1400
cc:

Winston Cochran

P O Box 2945
League City, TX 77574
winstoncochran@comcast.net

POST OFFICE BOX 12548, AUSTIN, TEXAS 78711-2548 TEL:(512) 463-2100
An Equal Employment Opportunity Employer

WEB: WWW.TEXASATTORNEYGENERAL.GOV

